<html>
<title> - CHINA'S CITIZEN COMPLAINT SYSTEM: PROSPECTS FOR ACCOUNTABILITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                   CHINA'S CITIZEN COMPLAINT SYSTEM: 
                      PROSPECTS FOR ACCOUNTABILITY

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
55-540 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Douglas Grob, Cochairman's Senior Staff 
  Member, Congressional-Executive Commission on China............     1
Brettell, Anna, Senior Advisor, Congressional-Executive 
  Commission on China............................................     2
Minzner, Carl, Assistant Professor of Law, Washington University 
  in St. Louis, School of Law....................................     3
Li, Xiaorong, Research Scholar, the Institute for Philosophy and 
  Public Policy, University of Maryland, College Park............     7
Davis, Sara (Meg), Founder and Executive Director, Asia Catalyst.    10

                                APPENDIX
                          Prepared Statements

Minzner, Carl....................................................    26
Li, Xiaorong.....................................................    31
Davis, Sara (Meg)................................................    38

 
     CHINA'S CITIZEN COMPLAINT SYSTEM: PROSPECTS FOR ACCOUNTABILITY

                              ----------                              


                        FRIDAY, DECEMBER 4, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:02 
p.m., in room 628, Dirksen Senate Office Building, Douglas 
Grob, Cochairman's Senior Staff Member, presiding.
    Also present: Charlotte Oldham-Moore, Staff Director; Anna 
Brettell, Senior Advisor; and Andrea Worden, Senior Advisor.

 OPENING STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Grob. Well, good afternoon, everybody. Thank you very 
much for attending our CECC roundtable on ``China's Citizen 
Complaint System: Prospects for Accountability.''
    My name is Douglas Grob. I am Cochairman Sandy Levin's 
Senior Staff Member on the Commission staff, and on behalf of 
Congressman Levin, I would like to welcome you here and thank 
you very much for your attendance.
    I am very pleased to appear here with this very 
distinguished panel. We will be discussing today China's 
citizen complaint system, sometimes called the petitioning 
system, or in Chinese, the xinfang system--xinfang meaning 
letters and visits. This system has imperial roots. It has long 
been an avenue outside the judicial system for citizens in 
China to present their grievances to authorities.
    China has an extensive system of xinfang offices and 
personnel at all levels of government. Citizens petition on a 
wide range of issues--everything from minor disputes to the 
most egregious alleged abuses of power.
    The xinfang system is one of the most widely misunderstood 
systems in China. Even a casual reading of Western reporting 
will reveal a wide range of portrayals of exactly what this 
system is. It is very easy to come away with a range of 
perceptions--or misperceptions--including that it's part of the 
formal legal system, that it exists side-by-side with the legal 
system, that it is independent of the legal system, that it is 
highly relevant to the legal system, or, that it is irrelevant 
to the legal system.
    So today we hope to lend some clarity to these issues and 
to increase our understanding of whether xinfang is, in fact, 
an avenue for appeal, whether it is a mechanism for resolving 
disputes, whether xinfang offices function with any formal 
investigatory power, or whether they are simply an agency 
referring disputes along the appropriate institutional path, 
performing some sort of a sorting function. To that end, we are 
extremely fortunate today to have one of the foremost scholars 
who has contributed perhaps more than anybody else in recent 
years to the enhancement of the clarity with which we 
understand the xinfang system in China, and we will be 
introducing Professor Minzner in just a moment.
    Petitioners in China report widespread official disregard 
of complaints. They report human rights abuses. Authorities 
reportedly have harassed petitioners. There have been cases 
where petitioners have been sentenced to reeducation through 
labor and detention in ``black jails''--extralegal detention 
centers--or detained in psychiatric institutions. And so we are 
also very fortunate to have another foremost expert, Meg Davis, 
on the panel to help us put a human face on some of these 
petitioner cases.
    Finally, the reason why it is so critically important that 
we hold this roundtable today is that the xinfang system has 
come to the fore in recent years in part because authorities 
have reported increasing numbers of citizen complaints related 
to a wave of local department-level rules issued by authorities 
in many locales in China regarding so-called ``abnormal 
petitioning.'' It is believed that the new rules may be part of 
an effort to curb the number of petitioners generally, or part 
of an effort to curb the number of petitioners traveling to 
Beijing to seek redress that they may not have been able to 
find at the local level. We are very fortunate then to have 
also with us Professor Li Xiaorong, who can help us understand 
the contours of the petitioning population in China, why 
citizens continue to petition in the face of a very challenging 
environment for bringing grievances before the government, and 
who will outline the forms of official retaliation that have 
been documented against petitioners, including forms of 
extralegal detention.
    So now, in order to get started, it is my very high 
privilege to introduce to you Dr. Anna Brettell, sitting to my 
right, Senior Advisor on the Commission staff and our staff 
specialist in this area, to present our witnesses to you.

   STATEMENT OF ANNA BRETTELL, SENIOR ADVISOR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Ms. Brettell. Thank you very much, Doug.
    First, I'll introduce Carl Minzner, who is an Associate 
Professor of Law at Washington University in St. Louis in the 
School of Law. He specializes in Chinese law and politics. 
Before joining the law faculty, he served as Senior Counsel for 
the Congressional-Executive Commission on China and was an 
International Affairs Fellow at the Council on Foreign 
Relations.
    He also served as a Euro-China Legal Education Fellow at 
Xibei Institute of Politics and Law in Xi'an. He previously 
practiced intellectual property law in the San Francisco Bay 
area, and clerked for Judge Raymond Clevenger, U.S. Court of 
Appeals for the Federal Circuit. He received a joint J.D./MIA 
degree from Columbia Law and the School of International and 
Public Affairs, and a BA in International Relations from 
Stanford University.
    His published works include ``Riots and Cover-Ups: 
Counterproductive Control of Local Agents in China,'' and 
``Xinfang: An Alternative to Formal Chinese Legal 
Institutions.''
    Next, we have Li Xiaorong. Professor Li has been a research 
scholar at the Institute for Philosophy and Public Policy of 
the University of Maryland since 1993, where she specializes in 
political and moral philosophy, ethics with a focus on human 
rights, cultural diversity, pluralism, and ethics of 
globalization. She has taught a graduate seminar on Philosophy, 
Politics, and Public Policy at the university.
    She has published materials on numerous subjects, including 
human rights and cultural relativism, international justice, 
reproductive rights, and gender issues in developing countries. 
She's the author of ``Ethics, Human Rights and Culture,'' a 
book published by PalGrave Macmillan, and many other academic 
articles.
    Her research projects have won support from the National 
Endowment for Humanities, the McArthur Foundation, the U.S. 
Institute of Peace, and the Institute for Advanced Studies at 
Princeton.
    Dr. Sara (Meg) Davis is the founder and executive director 
of Asia Catalyst, a nonprofit organization with an office in 
New York that partners with activists in Asia to launch 
innovative and self-sustaining programs and organizations that 
advance human rights, social justice, and environmental 
protection.
    Dr. Davis is a writer and a human rights advocate who has 
conducted research and advocacy on HIV/AIDS and human rights, 
police abuse, housing rights, environmental rights, and the 
rule of law in China, Thailand, Burma, Cambodia, and Indonesia.
    She earned her Ph.D. at the University of Pennsylvania and 
held post-doctoral fellowships at Yale and UCLA. As a China 
researcher for Human Rights Watch, she published reports and 
conducted global advocacy. Her book, ``Song and Silence: Ethic 
Revival on China's Southwest Borders,'' which was published by 
Columbia University Press in 2006, draws on research in both 
China and Burma.
    Her articles have appeared in the Wall Street Journal-Asia, 
the National Herald Tribune, the South China Morning Post, and 
Modern China.
    So without further ado, I will turn the floor over to 
Professor Minzner.

    STATEMENT OF CARL MINZNER, ASSISTANT PROFESSOR OF LAW, 
        WASHINGTON UNIVERSITY IN ST. LOUIS SCHOOL OF LAW

    Mr. Minzner. Thanks to Anna for organizing, and thanks to 
the CECC for holding, today's roundtable on citizen petitioning 
in China and the state institutions that respond to these 
petitions, particularly the xinfang, or letters and visits, 
system.
    As Anna mentioned, my written and oral statements today are 
highly abbreviated versions of two articles that I wrote in 
2006 and 2009.
    I'm going to try to accomplish four things in the brief 
time allotted to me today.
    First, I'm going to describe the nature of xinfang 
institutions and citizen petitioning in China. Second, I'm 
going to argue that Chinese citizens resort to these 
institutions and practices because the existing political and 
legal systems leave them no better option, and because 
incentives within the system make it a rational choice for some 
petitioners. Third, I'm going to point out that the interplay 
between existing xinfang institutions and citizen petitioning 
practices generates a wide range of negative consequences for 
Chinese citizens and society at large. These include disuse or 
atrophy of formal legal institutions, an escalating cycle of 
social destabilization, and a wide range of abuses against 
petitioners. Fourth, I'm going to argue that political 
liberalization may be necessary to resolve the underlying 
problems I just mentioned and to support the development of the 
rule of law in China.
    So let's start with the first issue. What are xinfang 
institutions, and what is citizen petitioning? Well, since the 
1950s, letters and visits offices, or xinfang offices, have 
served as a channel for citizens in the People's Republic of 
China [PRC] to seek assistance in resolving specific 
grievances, to appeal government decisions, and to engage in a 
limited form of political participation. Xinfang institutions 
are found throughout the Chinese bureaucracy, including the 
Communist Party, local people's congresses, courts, government, 
police, and so on.
    However, the focus of xinfang institutions is not on 
resolving all grievances equally, according to law. Rather, its 
primary focus is on triggering the intervention of higher level 
Party and government officials in handling and resolving 
precisely those disputes that pose an imminent threat to social 
order--say, 200 laid-off workers showing up in front of the 
local township government offices and staging a sit-down 
protest.
    The actual institutional authority of xinfang institutions 
themselves to resolve specific grievances is actually quite 
weak. Most commonly, xinfang bureaus simply refer individual 
petitions to other government agencies for action. Occasionally 
they may send out some of their own personnel to conduct 
additional investigations of particular problems. In a very few 
rare cases, xinfang offices may be successful in prompting 
intervention of a core Party or government official in 
resolving a particular dispute.
    Now, what is citizen petitioning? Well, petitioning 
consists of efforts by citizens to try to prompt the 
discretionary intervention of these higher level Party 
authorities in resolving their disputes. Chinese citizens 
employ a wide range of strategies to do this. Individual 
petitioning can be as simple as one disgruntled individual 
going from bureau door to bureau door, day after day, week 
after week, month after month, decade after decade, in an 
effort to locate a Party or government official who might be 
able to weigh in on their particular dispute.
    These types of individual petitioning efforts are rarely 
successful. In one study, Yu Jianrong, a scholar in the Chinese 
Academy of Social Sciences found that less than 0.2 percent of 
such individual petitions are actually addressed. Many such 
petitioners spend years or decades in a futile search for 
justice.
    In contrast, collective or mass petitions have a much 
stronger political cast to them. These can involve organized 
demonstrations, speeches, and marches of hundreds or thousands 
of individuals seeking to present their grievances to 
officials.
    Xinfang institutions remain a popular channel for injured 
citizens to try to prompt elite involvement in the resolution 
of their particular grievances.
    In 2003 alone, petitions to Party and government xinfang 
bureaus at the county level and higher totaled about 11.5 
million, about twice the number of cases handled by the Chinese 
courts. You see a similar situation within Chinese legal 
institutions themselves--huge numbers of petitions within 
courts and procurato-
rates.
    Now, that is a brief introduction to the xinfang system and 
to 
citizen petitioning. Let's move to the second question: why 
might citizens resort to petitioning rather than formal legal 
channels or alternative political channels for the resolution 
of their grievances?
    One answer: it is not clear that other alternatives are any 
better. Particularly at the local level in China, political 
power is highly concentrated in the hands of a few officials, 
namely the township and county Party secretary. If you are a 
petitioner seeking redress for a local government action, such 
as the seizure of your land, it's not necessarily clear that 
going through the regular machinery of government, including 
the local courts that are subject to their networks of 
influence, necessarily generates a better outcome for you as 
opposed to, say, trying to show up on the doorstep of the 
individual township or county Party secretary, or perhaps 
better yet, somebody who outranks him or her in the Party chain 
of command.
    But in addition to a lack of other alternatives, there are 
actually incentives within the system that effectively 
encourage, sometimes perversely, citizens to resort to the 
petitioning of higher level officials as a means to resolve 
their grievances.
    Local Chinese officials don't face a range of meaningful 
bottom-up electoral or independent judicial checks on their 
behavior. They do face a range of top-down checks. 
Specifically, they face a round of top-down targets that govern 
their career performance. These are called cadre responsibility 
systems (mubiao guanli zeren zhuijiu zhi), and other names in 
Chinese.
    Higher level Party authorities use cadre responsibility 
systems to set specific targets for local officials. These 
include targets in fields such as birth control, economic 
development, and social order. Success in meeting these targets 
results in a range of positive career awards: bonuses, your 
career being fast-tracked, et cetera. Failure results in a 
range of negative outcomes: fines, adverse notations in your 
personnel file, et cetera. Naturally, this means that local 
Party officials are highly motivated to meet these targets. 
Social order targets are commonly phrased in terms of 
petitions, particularly mass petitions.
    For example, in Anhui Province, local officials receive a 
warning for mass petitions of 50 or more petitioners who go to 
the provincial capital, or 20 or more who go to Beijing. They 
receive a suspension for mass petitions over 100 or more 
petitioners who go to the provincial capital, or 30 or more who 
go to Beijing. Other responsibility systems resemble these: 
applying increasingly severe punishments for larger or more 
frequent petitions directed at higher 
levels of government.
    Naturally, one effect of this is that it encourages local 
Party officials to be extremely attentive to controlling 
expressions of social discontent. As Meg will discuss, local 
Party officials use thugs and kidnapping to intimidate or 
forestall petitioners who seek to make their way to higher 
levels of government, precisely because they fear the adverse 
consequences of such petitioning for their own careers.
    However, the existence of responsibility systems also gives 
citizens a tool to try to pressure the intervention of local 
Party secretaries in resolving their disputes. If you're a 
disgruntled petitioner, the threat of organizing or actually 
carrying out a mass petition can be a direct tool to try to 
apply pressure on local Party officials to take, or not take, 
some kind of action. After all, unlike, say, a court decision, 
this touches on something that's directly linked to his 
official performance and career.
    Okay. So that's what petitioning is, and that's why Chinese 
citizens might resort to it.
    Now let's move to the third question, which is: what are 
the effects of the incentives created by the xinfang system? 
Well, one thing it does is to incentivize individuals, in some 
cases, to recast legally cognizable grievances in larger, more 
politically mobilized terms. Let me give one example.
    In 2006, 70 migrant workers in Yingzhou City in Anhui 
Province were upset, dissatisfied with a provincial High 
People's Court decision that had denied them back wages. What 
did they do? They went to the local provincial Party 
headquarters and surrounded it. The next day, the very next 
day, provincial Party leaders met and arranged compensation on 
terms that technically violated the decision of the provincial 
High People's Court decision, rendering an outcome, favorable 
to the petitioners.
    That, of course, only happens in sort of a very small 
number of cases. But that is exactly the kind of dynamic that 
fuels the growth in mass incidents, precisely because you've 
got a lack of other legal and political avenues for redress, 
and you've got this avenue--the threat of a mass petition or 
protest, that has a large potential payoff--it might get some 
group of petitioners what they're seeking.
    This drives the growth of mass incidents. In fact, 
statistics suggest that that's exactly what you're seeing. Many 
of the mass 
incidents that are growing in China are linked toward this 
dynamic--citizens trying to find some way to apply pressure to 
local officials because they don't have any other institutional 
options.
    Of course, at the same time, this same dynamic also gives 
local officials a vested interest in suppressing petitioning 
activity, sometimes through violence, rather than in addressing 
underlying causes of the problems. What is the result of this? 
First, this is breeding extremism and desperation on the part 
of most petitioners. Second, it also appears to be leading to 
the disuse or atrophy of formal legal institutions. You're 
seeing a declining use in 
administrative legal channels as petitioners are choosing 
alternative routes, such as street protests, to resolve their 
grievances.
    Last, you're seeing a loss of authority in courts and legal 
institutions. Frank He, out of Hong Kong, has a great article 
noting cases in which courts in southern China are simply 
paying off petitioners out of their own budgets, trying to get 
petitioners off the streets through any means necessary rather 
than deciding their cases, precisely because they face such 
direct pressure to do absolutely anything to resolve petitions 
in the short term.
    Now, the question is: where does this lead you? To me, it 
doesn't appear to be laying groundwork for gradual 
institutional change in China. Rather, it seems to me to be 
creating a breeding ground for increased social instability.
    So, let's move on to the last question: how to address 
these problems. At base, the xinfang problem is an 
institutional problem--a problem of legal and political 
institutions. It reflects a lacks of alternative, functional 
outlets for the political demands of Chinese citizens to 
participate in the decisions that affect their lives. And it 
reflects a lack of alternative, independent channels for 
Chinese citizens efforts to get redress for their grievances.
    This is exactly the conclusion of Chinese experts 
themselves--including institutions as varied as the Chinese 
Academy of Social Sciences [CASS]--China's top academic think 
tank, and Gongmeng--an independent-minded, non-governmental 
organization that was just shut down by the Chinese authorities 
last summer. As Chinese organizations such as these have 
pointed out, 
responding to these problems requires effective and meaningful 
legislative and judicial reform. This is not just my personal 
opinion--this is what Chinese organizations such as Gongmeng 
and CASS are themselves saying.
    Local Chinese legislatures--that is to say, local People's 
Congresses [LPCs]--need to be given a greater role in 
supervising government action. LPCs need to be made more 
representative--via meaningful electoral reforms. And the 
Chinese judiciary needs to be given greater independence and 
authority in checking government action.
    Only then can the demands of Chinese citizens for increased 
participation in the official decisions that affect their lives 
and citizen efforts to obtain redress for their grievances be 
channeled out of the xinfang system and into the gradual 
creation of other, better institutions.
    Ms. Oldham-Moore. Thank you, Mr. Minzner.
    So now we'll move to Professor Li Xiaorong.
    [The prepared statement of Mr. Minzner appears in the 
appendix.]

 STATEMENT OF LI XIAORONG, RESEARCH SCHOLAR, THE INSTITUTE FOR 
 PHILOSOPHY AND PUBLIC POLICY, UNIVERSITY OF MARYLAND-COLLEGE 
                              PARK

    Ms. Li. Thank you, CECC directors and staff, particularly 
Anna, for arranging this talk.
    This day, December 4, is a Chinese observation day for pufa 
[popularize laws] and propaganda for the law day. Petitioners 
have turned this day into a day for redressing grievances. 
Today in Beijing, large groups of petitioners from Shanghai and 
all other places are being rounded up and sent to Majialou, the 
processing station for petitioners. So, it is all fitting.
    In 2007, I devised the group China Human Rights Defenders 
[CHRD] to do an investigation for petitioning and black jails, 
so my talk today is largely based on this report, which is 
documented in ``Silencing Complaints.'' Copies are available. 
Also, I put some copies of the CHRD book outside. Some of the 
questions I want to talk about have been covered by Professor 
Minzner, so that makes it easy. I just want to go in the 
fashion of questions and answers to make it more digestible for 
you.
    So, how big a population are we talking about here? It is 
difficult to estimate the number of petitioners in China due to 
a shortage of accurate official statistics. A 2004 article in 
the Southern Weekend reported that, ``According to official 
statistics, there were over 10 million petitioning cases in 
China last year.'' So, that is six years ago, and the number 
has grown, precisely due to the fact that there are more 
grievances. But the number is likely to be bigger, also because 
there are many petitioners who are not registered. For example, 
those who were intercepted before they reached the letters and 
visits offices.
    Why do petitioners petition? Professor Minzner has covered 
that, so I will skip.
    What are petitioners? Petitioners are mostly women and some 
children, and a lot of elderly people, and disabled. In recent 
years, because more rights violations are related to official 
corruption and the negative impact of economic development, 
more young and educated people have joined.
    Petitioners who reach Beijing are often veteran petitioners 
who have been petitioning for many years. They first reached 
the local-level governments where their grievances were not 
redressed and they were persecuted, so they go further to 
Beijing.
    Why do petitioners persist? Professor Minzner also covered 
this. I just want to make a small correction. It is a slow-
building phenomenon, because when the petitioners first go to 
the local office, they're persecuted. They go to Beijing, and 
they are persecuted further. They become organized. When they 
get organized, this scares the government. Then the organizers 
get very harsh punishments.
    When did interceptions become so intensified and perverse? 
Large-scale and systematic interception of petitioners is 
relatively new, partly because of abolishing of repatriation 
centers, custody and repatriation centers. Interception also 
does not exist legally and publicly in China, but evidence 
points to a rapidly expanding operation, extensive in scope.
    Since 2004-2005, because the number of petitioners has kept 
growing, interception has become a major area of responsibility 
for various local governments and many departments at different 
levels are involved. Local CCP organs and the government 
agencies mobilize substantial resources to intercept 
petitioners.
    What are frequently used means of interception? There are 
many, but here are the main ones: harassment of petitioners' 
families who stayed home, civilians; kidnapping, assault, 
murder, and arbitrary detention. I want to say a few words 
about murder, because it's a serious charge and I'd better be 
able to back myself up.
    At the start of 2005, six bodies were found when the moat 
near the state council and National People's Congress was 
cleaned. Petitioning materials, well-preserved in plastic bags, 
were found on the bodies. There were documented cases of 
petitioners who died as a result of torture. Shanghai 
petitioners Duan Huimin and Chen Xiaoming were allegedly 
tortured to death at a detention center after they'd been 
caught for petitioning in 2007.
    Three months ago, Hebei petitioner Liu Fengqin died in a 
local reeducation through labor camp after she was sent there 
for repeatedly petitioning in Beijing. Then in October, 
Shandong petitioner Li Shulian died in a local black jail after 
she was intercepted in Beijing and sent back to detention. 
Police claimed that she committed suicide, but so far both 
families have been silenced and threatened after the 
investigations.
    There are various forms of detention. I'll just go very 
quickly through the list: reeducation through labor camps, 
psychiatric facilities, black jails, and law education classes, 
xuefaban or xuexiban, and finally, imprisonment.
    Why do authorities abuse petitioners to such an extent? 
Professor Minzner has covered that ground. I just want to 
quickly mention a few: evading accountability. Local 
governments don't want their scandals to be exposed at the 
national level.
    Second, priority of maintaining a measure of harmony by the 
central government. They do not have the ability to handle the 
growing number of petitioners, so they issue ordinances, 
including the recent one calling petitioning illegal.
    Third, profit-driven motives. As Professor Minzner has 
explained, there's a point deduction system. When the 
petitioner is caught in Beijing, the local government has to 
pay by reducing their budgets or by a fine. Then they also use 
petitioners to do an exchange of bribes. At the national level, 
xinfang zhan, when they register a 
petitioner, they will call the local government's offices in 
Beijing, saying, come to pay and get your petitioner and I will 
erase the registration. So this creates a lot of incentives for 
local governments to get the petitioners back and put them in 
black jails to punish them so they don't petition again.
    Number four, there's a political phobia against any 
organized mass mobilization. When the petitioners become 
organized and they form associations, this really scares the 
government.
    Finally, the vagueness of language in the regulation, the 
xinfang tiaoli, creates a lot of space for police and officials 
to abuse petitioners. I just want to mention one. It's called 
the self-review system. Under this system, when the petitioner 
who is complaining about local officials' misconduct is caught 
in Beijing, they are sent back to exactly the same officials to 
be handled, and you can imagine the consequences.
    What to do? I have two minutes. I'll just run down the 
list: reform the incentive systems that encourage interception; 
abolish the reform through labor camp system and all other 
extra-judicial 
detention facilities, including black jails; hold officials 
criminally accountable; make complaint procedures partial, 
amending discriminatory regulations in the xinfang tiaoli; 
strengthen judicial independence and other alternative channels 
to lodge complaints.
    For the international community, the United Nations, the 
E.U., the U.S. Government, and the bank systems that support 
rule of law programs in China, they should continue to raise 
their concerns about the petitioners and the persecution of 
petitioners, and the press should continue to cover stories. 
The French Channel 24, BBC did documentaries about the black 
jails. They should all demand the closing of black jails.
    Thank you.
    Ms. Oldham-Moore. Thank you very much, Ms. Li.
    Dr. Davis?
    [The prepared statement of Ms. Li appears in the appendix.]

STATEMENT OF SARA (MEG) DAVIS, FOUNDER AND EXECUTIVE DIRECTOR, 
                         ASIA CATALYST

    Ms. Davis. Thank you very much.
    So, following on Professor Minzner and Professor Li's very 
eloquent explanations of the petitioning system, I'd like to 
share some case studies to give you a sense of the human face 
behind what you've heard, as well as some of the challenges 
that impede reform.
    My organization, Asia Catalyst, works with civil society in 
China and Southeast Asia, especially with AIDS activists. But 
before founding Asia Catalyst a few years ago, I worked for 
three years as the China researcher for Human Rights Watch, 
where I conducted field research and wrote book-length reports, 
including one on petitioners titled, ``We Could Disappear At 
Any Time.''
    I no longer represent Human Rights Watch, which recently 
published a new report on petitioners and the black jails, 
which Xiaorong has just mentioned. For reasons I'll get into, 
though, I expect that many of the people I interviewed in 2005 
are still in Beijing or in their hometowns petitioning.
    On a personal level, I remain haunted by the voices that I 
heard back then and by the vision they shared of a vicious 
cycle with no easy way out, and I'm grateful to Anna and the 
CECC for the opportunity to reflect on what they said, once 
again.
    So we've heard a little about the petitioning laws and the 
system that they manage, but who are the petitioners? One of 
the things that makes them so compelling to talk to is that, as 
a rule, they're not political activists. They're not 
dissidents. They are, for the most part, ordinary people, many 
of them staunch believers in Socialist ideals and in the 
achievements of the Chinese Communist Party, but who have 
suffered terrible injustices.
    Many of them have little idea of what the term ``human 
rights'' might even mean, except that it might mean, in the 
words of one Beijing man I spoke to, that ``an official's son 
should be given the same treatment as my son.'' Though they 
don't have a clear sense of what human rights might mean, I 
would still consider them to be the cutting edge of the human 
rights movement in China, these rural and urban poor who are 
lining the streets in front of petitioning offices around the 
country.
    So in 2005, I went to Beijing for a month with two interns 
to gather testimony from petitioners about police abuse for 
this report from Human Rights Watch. As I know that my 
visibility as a representative of that organization made me a 
risky person to talk to in China, we took a number of 
precautions in the field and in the end we were able to 
interview 34 people.
    Most of the petitioners we met were living on the streets 
of Beijing or in very rudimentary boarding houses. They were 
selling newspapers, gathering cans for recycling to survive. 
Quite a few were living off of scraps that they dug out of the 
garbage. We would order a few dishes of food as compensation 
for their time and talk to them in the back room of a 
restaurant. Mostly--that encouragement would wave off our 
warnings about the risks of talking to us and they'd pull out 
sheaves of paper, piles of forms and judgments, and stamped 
receipts as evidence of their cases.
    The range of individuals was quite great, from a middle-
class shopowner with a stiff perm and an embroidered sweater 
who represented 1,500 investors who'd been bilked by a 
fraudulent investment scam, to an unwashed farmer woman who 
arrived at the 
restaurant toting a cloth backpack that had all her worldly 
belongings in it.
    The petitioners who spoke to us had often begun their epic 
journeys with a harrowing incident in their hometowns. Several 
people had lost sons or brothers to police abuse; a few 
describe challenging local officials on corruption and being 
nearly killed in retaliation.
    One mild-mannered man I met with his young son described an 
attack by thugs who he believed were hired by a local official. 
He said, ``At 7 p.m. on January 31, 2002, five or six people 
went to my house. They brought an iron hammer. They came in and 
said nothing. They weren't from our village; I'd never seen 
them before. They were thugs. First, they hit my wife and my 
younger brother's wife in the head with an iron hammer. They 
were coming for me, but they didn't know what they were dealing 
with. My brother hit one attacker over the head with a chair, 
and then when the chair broke, he beat him to death with the 
chair leg. The kids were crying; they were terrified.''
    There were several of these allegations about attempted 
assassinations by officials. Ma, a Henan man, was actually a 
second-generation petitioner. His father began petitioning in 
the Mao era over a land claim and persisted with his case for 
19 years. Ma said that officials had assassinated his father in 
retaliation. ``They killed him with a hoe. They hit him in the 
back of the head. They also hit my mother and my sister. My 
sister fought back and killed the attacker, so she was 
sentenced to five years in prison. This was all arranged by the 
village deputy Party secretary. I thought this was not fair 
treatment for my sister, so I've been petitioning for many 
years.''
    Other people I spoke with about forced evictions from their 
homes and cities, or forced land expropriation in the 
countryside. At Asia Catalyst, we also monitor cases in which 
petitioners from Henan and Hebei are demanding compensation for 
their infection with HIV through unsafe blood transfusions in 
hospitals. There have been quite a few of those.
    In many cases, people who began petitioning about one local 
abuse then became a victim to retaliation for their 
petitioning. As they moved up the system, appealing from the 
township, to the county, to the provincial level, and then on 
to Beijing, becoming the veterans that Xiaorong referred to, 
abuse would pile on abuse. So a petite and shy woman of 39 told 
us, ``I was married by force to a man I had known for one week 
in 2000. I tried to leave my husband and he wouldn't let me. 
The day after, two people came home with him. They ripped my 
clothes off and raped me. It was my husband and two of our 
neighbors. I complained and the police detained him for a few 
days, then they let him go. I think he paid a bribe.''
    The gang rape, in her case, was the original abuse. As she 
petitioned higher up the system, the retaliation began. ``For 
making false accusations against my husband, I was sentenced to 
one year in prison,'' she said. The court concluded that the 
rape in the context of marriage, even gang rape, was 
consensual. In the local prison, conditions were brutal; 10 
women shared a cell. The authorities shackled her hands and 
feet for days at a time for minor infractions, and at one point 
she was shackled day and night for seven days.
    But as soon as she was released, she came back to Beijing 
to petition. Like many petitioners, she clung to her faith in 
senior leaders and that they would intercede in her case. One 
of the persistent fears of petitioners like this woman was of 
being detained by retrievers, some of whom were out-of-uniform 
police, others just thugs hired by provincial authorities.
    The job of retrievers is to find any petitioners from their 
province, kidnap the petitioners, and bring them back to the 
petitioners' hometown. In some cases, the petitioner is then 
imprisoned in a local detention facility, in other cases 
they're released, in which case they often just come right back 
to Beijing on the next bus.
    One petitioner gave us a photograph he had taken of the 
retrievers lined up across the street from one of the petitions 
offices in Beijing, perched on small folding stools or leaning 
on trees like hawks ready to pounce. Abuses by these retrievers 
are common. One elderly couple I interviewed described being 
ambushed by retrievers who heard her and her husband's accent 
on the street, guessed which province they were from, and 
attacked them.
    She said, ``Thirty to forty people surrounded us and asked 
us where we were from. Before we even opened our mouths, they 
started to hit us. Over 20 people began hitting my husband. 
They stomped his body here,'' indicating the left ribs, ``they 
knocked me down too. Every time I tried to get up, they kicked 
me back down. This happened three or four times. It was raining 
and my poncho was soaked with water.''
    When we did these interviews in 2005, petitioners spoke 
with fear about the building known as the Majialou, where they 
are interrogated, threatened, and sometimes beaten by 
retrievers. I noted, in preparing for this roundtable, that the 
recent report by Human Rights Watch also refers to the 
Majialou, except that it's shifted. In 2005, the Majialou was a 
detention facility, according to people I interviewed.
    In 2009, it has now become a kind of sorting facility in 
which people are sent off to black jails. The black jails are 
often rooms that are appended to hotels that represent the 
provincial governments in Beijing. So this shift in the 
function of the Majialou facility may be one indicator of the 
rise in the number of petitioners in Beijing, that they had to 
expand their detention system.
    While China Human Rights Defenders and Human Rights Watch 
both report that some petitioners are kept in these black jails 
for extended periods, for the most part the facilities seem to 
be way stations that are used to collect and threaten 
petitioners before sending them back to their home province.
    Out of the 34 people we interviewed, I only met 1 man who 
had successfully obtained a letter from the Supreme Court in 
response to his petition, the holy grail sought by all 
petitioners. When we expressed amazement of this, he shouted at 
us in frustration: ``I have over 20 of these letters. They all 
say the same thing. I asked the head of the court Petitions 
Office, `What use are your letters? ' And he said to me 
directly, `They're no use.' ''
    Under the circumstances, it's remarkable that most of the 
petitioners I interviewed in 2005 continue to petition and most 
likely are still petitioning today even as we speak. All the 
petitioners we interviewed had come to Beijing numerous times, 
despite surviving beatings, torture, and detention. ``I can't 
not petition,'' said one woman who had suffered weeks of 
torture in a detention center that left her permanently on 
crutches. ``I don't fear anything,'' said others. ``What else 
can they do to me that they haven't done already? ''
    It's this reckless disregard for personal safety, this 
obsessive desperation in pushing their long, handwritten 
letters on anyone who seems remotely able to help, and the fact 
that they live in filth and poverty on the streets, that leads 
many mainstream Chinese people, including many in the 
government who have to listen to their complaints, to conclude 
that the majority of petitioners are mentally unbalanced. 
Having spent some time with them, I can't completely disagree. 
Many are unbalanced. Whether they began that way, though, is 
another question.
    If we examine the choices that are available to them, the 
choice to seek redress is a turning point in their lives that 
gradually shuts down over life paths. Over time, petitioners 
are driven deeper and deeper into a maze from which there is no 
exit. If an official steals your land, or worse, actually 
attempts to kill you and you decide to fight back, how do you 
go home? Retaliation would be a constant threat.
    In another country, having tried and failed to find 
redress, a victim could give up, choose to move to a new town, 
start a new life. But China's restrictive household 
registration, or hukou system, makes that close to impossible. 
Without a local household registration card, a new resident 
cannot get a job, go to a hospital, or send their children to 
school.
    So once having started to petition, petitioners 
increasingly become focused on this receding goal that some 
senior official is going to take pity on them and intercede in 
their case. They become locked in a tragic cycle of 
petitioning, suffering more abuses and petitioning about those 
as well, that ultimately destroys the individuals, and often 
their families, and almost never results in justice.
    But the petitioners may not be the only ones locked in a 
maze with no exit. As Carl's work on the incentive system, this 
cadre responsibility system, shows, the Communist Party is also 
now in a parallel and potentially equally dangerous cycle that 
pivots on the absence of accountability at every level of the 
system. A system that governs through absolute allegiance must 
be able to protect its own or risk disloyalty and 
disintegration in the ranks.
    This logic leads to a system that requires local officials 
not to investigate abuses against colleagues, but to cover them 
up with new abuses. The end result has become an ever-widening 
pool of dislocated victims with nothing to lose, who in turn 
require ever more brutal measures to suppress.
    There is only one way out of this maze: China needs senior 
officials with the courage to institute sweeping reform of the 
legal and petitioning systems, reforms that result in equal 
access to justice for all Chinese citizens. Without it, the 
current system and its supplicants will continue on their 
parallel cycles and the state that appears so strong from the 
outside will face increasingly destabilizing pressure from 
within.
    Thank you.
    [The prepared statement of Ms. Davis appears in the 
appendix.]
    Mr. Grob. Well, thank you very much to all three of you for 
your very clear and informative presentations.
    We're going to turn in a minute to the Q&A portion of our 
program, where we'll turn to members of the audience to ask 
questions of our panelists and engage in a discussion of the 
questions raised.
    Before we do that, however, I just wanted to recognize in 
the audience Ms. Shen Ting, who is the director of the Chinese 
League of Victims, which is an NGO of some 80,000 mainland 
petitioners that registered in Hong Kong in December 2008. A 
former petitioner herself, Ms. Shen is a Shanghai native, 
living in Hong Kong, and she is not permitted to return to 
mainland China because of her petitioning and organizing 
activities.
    She and the League of Victims have been publicizing 
petitioner grievances related to land confiscation and other 
issues in Shanghai in relation to the upcoming Shanghai World 
Expo that will take place from May to October 2010 in Shanghai. 
I wonder if you would like to take a minute or two to explain 
to the audience some of your activities. I don't think we have 
a roving microphone, so please just come up here.
    Ms. Shen [through translator, Mr. Hongfuan Li]. Thank you 
to the commission for giving me this chance to speak a few 
words. I speak here to represent the Chinese victims, 
especially the Shanghai Expo refugees, to speak to the world. 
The authorities in the Shanghai government have relocated 
thousands of citizens from their homes for the construction of 
the expo buildings, with the claim that a new civilized China 
is on the rise again. However, behind this cover, there are the 
cries and the tragedies. My organization has compiled and 
published a new book. It's called ``The Shanghai Expo World 
Shame: The Victims of Shanghai World Expo Cry for SOS.'' I 
tried to expose the monumental scandals behind the Shanghai 
Expo. I am asking the U.S. Congress and human rights 
organizations to please, pay some attention to the stories of 
the Shanghai Expo refugees. Please pay special attention to 
these refugees and help them.
    Thank you.
    Mr. Grob. Thank you very much for your remarks. We're 
honored to have you here.
    We'd like to begin now with the question and answer part of 
our program. I'd like to open up the floor to questions from 
the audience. If you have a question, please raise your hand 
and speak loudly and clearly. I'd like to begin, first, with 
Andrea Worden, who is Senior Advisor on the staff of the 
Congressional-Executive Commission on China, to pose the first 
question.
    Ms. Worden. Thank you all. I would love to hear your 
thoughts about the extent to which individual petitioners and 
groups of petitioners are organizing across localities and 
across issue areas to share strategies, to support each other, 
and also the extent to which petitioners as a group are perhaps 
starting to recognize the rights that they have as petitioners? 
Are they starting to form a kind of collective identity?
    Mr. Grob. So the question is asking the panelists to please 
comment on the extent to which individual petitioners and 
groups of petitioners in China are organizing, either across 
locales or across issues, or both, and whether or not, as a 
group, they are recognizing the rights that they have as 
petitioners in forming some sort of collective identity.
    Would any of our panelists like to kick off that answer? 
Xiaorong?
    Ms. Li. Well, Shanghai is a good example. That's another 
good example for cross-locales. They're very organized. That 
explains why the persecution of the first eviction victims--
they petitioned, they turned into petitioners--is so harsh in 
Shanghai. Several deaths occurred, and also recently there were 
quite a few detentions and imprisonments. Duan Chinfau was 
recently imprisoned in an RTL center. Jerjing Di was briefly 
detained and then the lawyer who helped them, Zheng Enchong, 
has been under house arrest after he served prison time. And 
Feng Zhenghu now is at the Tokyo Airport, not allowed to 
return, and he's a legal advisor and organizer of the Shanghai 
petitioners. Then we have Shen Ting here.
    But the cross-locale organizations occur mostly in Beijing. 
The best-known organizer is Liu Jie, who is a woman in her mid-
50s. She just came out of a reform through labor [RTL] camp, 
where she was sent for a year and a half, seriously tortured. 
There are a few others, like Wang Guilan, Liu Xueli, and Zheng 
Dajing, all people who are from different provinces. Wang 
Guilan from Hubei, Zheng Dajing from Hebei, and I believe, Liu 
Xueli, is from Henan. So they were organizing in Beijing to 
help themselves to support, to find legal devices to file their 
cases, and to get the news on the Internet, to talk to 
reporters.
    Before the 2007 People's Congress session in Beijing--
collected more than 10,000 signatures to support overall 
political reform, with law reform and a call for human rights 
protections of the petitioners. It was a very strong statement 
for that. She went to the RTL prison, and a few people who 
helped her were also sent back to their provinces and put in 
black jails or RTL.
    That effort was crushed. Since then, it has been very 
difficult for organizing. This is what I meant when I said that 
the regulations are so discriminatory. They discriminate 
against organizers and discriminate against the people who are 
vocal, outspoken, charismatic, and who have turned from 
petitioners petitioning and defending their own personal rights 
into human rights defenders, 
defending the rights of others, and came to recognize the 
universality of human rights and started to work beyond the 
narrow interests of their own. This is what I meant.
    There are several articles in the regulations, some visits 
and letters, that discriminate against such people. For 
example, Article 18, binding people from petitioning in groups. 
Any one single case can only be filed by one person. It cannot 
be two people. Any case that involves more than two people has 
to find a representative. In cases that involve hundreds and 
thousands of people, you cannot have more than five 
representatives. So, this is all very well planned against any 
kind of organizing.
    In Article 20, we have all these crimes that are designed 
to punish people who try to exercise their right to expression, 
free expression and association and assembly. For example, the 
crime of illegally assembling in front of government offices. 
When you petition, you have to line up in front of the visits 
and letters office. How else can you do it? So when you line 
up, you're assembling and that can be a crime and gives the 
police authority to arrest you.
    So there are things like that that really should be taken 
out of that regulation. Did I answer all your questions? The 
bottom line is, right now, any kind of organizing efforts among 
the petitioners are harshly punished.
    Mr. Grob. Thank you very much.
    Meg, did you have something to add?
    Ms. Davis. Briefly, on HIV/AIDS, I've seen mobilizing by 
petitioners across localities, but within one issue. Those are 
cases of people who are infected with HIV through hospital 
blood transfusions. In Henan Province, and sometimes in other 
localities, they're not able, or are not allowed, to file suit 
in the courts and have no other form of recourse except to 
petition. So in some cases they have worked together to 
mobilize in order to get compensation and that's been effective 
for some people.
    Mr. Grob. Thank you very much.
    Mr. Minzner. And I'd just reiterate what Xiaorong said. 
First, Chinese authorities come down like a ton of bricks on 
anybody who's actually organizing petitioners. Second, 
particularly in rural areas, Chinese petitioners are pretty 
smart. In response to Chinese authorities' efforts to 
decapitate petitioning movements by targeting clear leaders, 
petitioners go underground. That's to say, if people are trying 
to put together some sort of petitioning movement, people will 
sometimes organize and try keep their identities vague--make it 
less clear who the real organizer is. So it's just sort of an 
arms race, between government repression on the one hand, and 
petitioners who are trying to find alternative strategies to 
mobilize.
    Mr. Grob. Thank you very much.
    Questions?
    Audience Participant. [Off microphone.]
    Mr. Grob. Thank you. So the question is, is there, at the 
end of the day, a way to reform the xinfang system so that it 
operates in accordance with international human rights 
standards?
    Mr. Minzner. That's the $10 million question. The reason 
why this is so hard is that it is tied to the core of the 
entire Chinese system, which is to say, it is wrapped up with 
all of the authoritarian controls over the political system and 
the problems that exist in the legal system. I would like to 
think that there's some easy way to go about reform, but I just 
don't see it.
    You have to have somebody in China at the top who is 
willing to take the step of moving down the road of opening up 
alternative legal and political institutions to give ordinary 
people more voice in the system, giving people more opportunity 
to participate in the decisions that affect their lives. If you 
don't take these reforms, I don't know how you'd change the 
problematic dynamics at work. But this requires real 
fundamental pressure for institutional change--somebody at the 
top in China willing to go in that direction. And at the moment 
I don't see anyone who's got the ability or the will to push 
for that kind of sweeping reform.
    Then the second question is: what can people on the outside 
do? One, I agree with one thing Xiaorong pointed out--the value 
of people on the outside highlighting the problems. Two, I also 
think there's a different tone that I sometimes find helpful 
when I try to talk to Chinese interlocutors on this issue. I 
find, particularly in the United States, when we address 
Chinese human rights or domestic political issues in China, we 
veer between either ignoring them entirely or moralizing and 
saying, China bad, China bad, China bad.
    Perhaps adopting a slightly different tone and trying to 
concretely lay out the extent to which Chinese authorities' own 
authoritarian political controls are undermining their own 
efforts to 
obtain social stability--that might be productive. That might 
be the right tone for foreign governments to adopt--trying to 
reason with Chinese authorities about why reforms in these 
areas are in their own interests. Because, at the end of the 
day, it has to be somebody in China who is willing to undertake 
the necessary reform, and outsiders need to find a way to 
emphasize that it is actually in China's own interests to do 
so.
    Three, there are a range of opportunities for Sino-U.S. 
collaboration on these issues. Even if there is resistance 
among some Chinese officials to institutional reform, there are 
others who are 
interested in working on these issues. Many of the key issues 
that many foreign NGOs and some Chinese authorities are 
interested in--legal reform, civil society--are all wrapped up 
in addressing the problems that are associated with the xinfang 
system. So, there should be a lot of range for collaborative 
work, even if there's still a lot of resistance in China on the 
issue of fundamental reform.
    Mr. Grob. Thank you.
    Did you want to add something?
    Ms. Li. Well, I just wanted to say, the fundamental 
solution is to reform China's judicial system. But before that 
happens, the xinfang zhidu may not be a totally bad thing to 
have. The thing is, when they have the xinfang system, why do 
they have to torture people and arbitrarily detain people and 
do all these things in violation of basic human rights? So 
there is room for improvement in the international institutions 
to step in.
    This year, in February, the U.N. Universal Periodic Review 
recommendations asked questions about arbitrary detention of 
petitioners and torture questioning, and also black jails. 
Also, last 
November the U.N. Committee Against Torture reviewed China's 
report and also raised the question of the black jails and the 
persecution of petitioners. In a way, the international human 
rights organizations put a spotlight on it. So unfortunately 
there is no one solution to the petition problem.
    The problem--the same old problem--is China's political 
system, repression against the freedom of expression, freedom 
of association, and torture. They're the same old issues that 
the International Human Rights Committee has been working on. 
So, the pressure just has to be kept on.
    Ms. Davis. I really agree with everything that Carl and 
Xiaorong have said, so I would only add one other thing that I 
think could help a little bit, which is building up civil 
society and building up the capacity of local NGOs, which can 
provide another avenue and another venue for people to resolve 
or seek redress at a local level. But I think, like all of us, 
when you look at this question it kind of creates a sense of 
despair, because the only way forward is for very senior 
officials to decide that they're going to cede some control, 
and why would they do that?
    Mr. Grob. Thank you very much.
    A question in the back here. I should just also add, this 
session--I should have mentioned this earlier--we're creating a 
transcript from this session, so if you would like to identify 
yourself when you ask your question, please do. If you prefer 
not to identify yourself, that's fine as well.
    Please.
    Ms. Simon. My name is Karla Simon and I teach law at 
Catholic University of America. I wanted to ask a question and 
I wanted to make a comment about what they just said.
    What is the significance of the--actually--publishing this 
new work? I mean, to me, that's very striking. I just wondered 
what our panelists think about that.
    With regard to what Meg said--what she said about local 
NGOs being organized and actually expressing themselves a 
little bit more--two things on that point. Just so you all 
know, I'm a scholar of civil society in China and I have 
testified before this commission before. But the point is, 
local NGOs are, in fact, now facing a registration system 
that's a little bit different. It's called the ``documentation 
system,'' which is a new way NGOs will register. The new system 
may be a very good and--for local NGOs to get more involved in 
this and provide avenues for citizen participation.
    Ms. Brettell. Just to explain a little bit about the 
question. Chinese Foreign Affairs Ministry spokespeople have 
denied the existence of black jails during the Universal 
Periodic Review, when they spoke in front of the United 
Nations. Also, I think even recently, in April 2009, a 
spokesman from the Ministry denied that there were black jails 
in China.
    But a couple of weeks ago there was an article in a 
magazine called Outlook, which is a magazine that's associated 
with the government. This article was actually quite 
astonishing in describing the phenomena of black jails, and 
giving quite a few details about them. This was the first time 
that a government-associated newspaper--maybe even any mainland 
newspaper--had acknowledged the existence of black jails. So, 
that's what your question is addressing, right?
    Ms. Simon. Correct.
    Mr. Minzner. I can take a stab at that. Yes, it's 
definitely a positive development when you see Chinese domestic 
media and domestic interest groups interested in these issues. 
These are the folks who should be talking about what the future 
of China should be and how these issues should be addressed. 
So, it's definitely positive.
    China itself is not a monolith--there are different groups 
and people within and outside the government who are aware of 
these issues and bring them to light from time to time. Think 
back, for example, to the Sun Zhigang incident in 2003, where a 
crusading media outlet exposed problems associated with the 
custody and repatriation system. You definitely see the 
spotlight brought on particular problems, such as petitioning, 
by different groups in China.
    However, the important question is: does it translate into 
sustained pressure within the system for serious institutional 
change to address the underlying problem? I hope that that will 
be the case. But this is a very tough problem, tied up with 
deep institutional problems in the Chinese political system. So 
while it's a positive development, I'll wait to see what the 
actual results are.
    Ms. Li. What's interesting, is the article never mentioned 
hei jianyu, the black jail. It only says ``heise chanye lian'' 
[grey enterprise chain]. It is the same, this phenomenon, for 
interception of petitioners. It's turned into a profit-driven 
chain of enterprising officials. It is significant in that 
Liaowang is tightly controlled by Xinhua, so why do they allow 
it to go forward? Maybe, like Carl said, it's one of those 
spotlights where there's a small opening, so it's hopeful.
    Mr. Grob. Great. Other questions? Yes. Charlotte?
    Ms. Oldham-Moore. This is for Professor Minzner--millions 
of people continue to petition. Do you have any examples where, 
recently, the petitioning system worked as we all agree it 
should?
    Mr. Minzner. If your definition of what ``works'' is 
petitioners getting something that they want, here are two 
concrete examples. The first is the one I described from 
Yingzhou, where you actually have citizens staging a mass 
petition that forces a concession from local officials. It's a 
dangerous gamble. The petitioners are potentially subject to 
repression, but in some situations the threat of 
social disruptive behavior might end up getting the officials 
to concede and back off. That may not necessarily be a good 
outcome from the standpoint of institution building or judicial 
authority, but at least for the petitioners, they're getting 
some of what they want.
    Let me give you another example of where the petition 
system works for one particular individual. In 2003, Premier 
Wen Jiabao was visiting Sichuan on an inspection tour. Xiong 
Deming, a rural woman, managed to complain personally to him 
about her husband's unpaid back wages.
    The very next day, the husband received his wages and the 
event was plastered all over the state media outlets. Now that 
gives Xiong Deming what she wants, but the particular effect 
that it creates, the impression that it gives among citizens at 
large, is that if I just manage to make it to Beijing and if I 
can meet with Wen Jiabao personally, I'm going to get what I 
want. Again, I'm not sure this is really a positive thing from 
the standpoint of building stable institutions in China.
    So those are the two types of examples that I can give 
where the petitioning process generates positive results for 
particular people. But I'm very hesistant to say that these 
indicate that the system is working institutionally, in terms 
of the big picture.
    Ms. Oldham-Moore. Please give me examples.
    Mr. Minzner. The low utility of the xinfang system from the 
perspective of petitioners may make more sense if you step back 
and think of the roles that the system is playing for Chinese 
officials. From the standpoint of Chinese authorities, they do 
not regard this as a system where we think that we should be 
resolving every single petition that's coming through.
    Rather, from the standpoint of Chinese authorities, the 
xinfang system serves as a general information source about 
what's going on in their own country. They use it as a way to 
generally note that, for example, there have been 400 
petitioners coming from Sichuan Province over the last six 
months, maybe the local officials there are less competent than 
those in Gansu Province.
    This means that the xinfang system serves as a channel for 
information to higher level authorities. But that's totally 
divorced from the idea that they need to take action on any 
individual citizen grievance, much less resolve all grievances 
equally according to law. The xinfang system is primarily a 
tool for higher level leaders to understand better what's going 
on, and to help them generally monitor their subordinates. It 
is not primarily a system to prompt higher level officials to 
take action in all cases that come into the system.
    Sure, there are cases out there where one official, such as 
Wen Jiabao, takes a personal interest in a particular problem 
and resolves it through his personal political power. But I'm 
hesitant to suggest that is a positive example of the system 
working the way it should.
    Ms. Davis. I think also we should distinguish between 
different kinds of cases and what we define as working. So, for 
instance, with the people who are petitioning for compensation 
from hospitals for HIV transfusion and blood supply, it can 
work for people in that, if you get a bunch of people together, 
you go to the hospital, you have your evidence, you stand there 
and you don't get beaten up or taken away, you might get some 
compensation and it might be more than you would have gotten as 
an individual going and talking to the hospital.
    But in cases--which are some of the worst cases that we 
were looking at in 2005--where you have someone who has lost a 
family member to police abuse, or some local official tried to 
kill them 
because they were complaining about corruption, ultimately the 
person doesn't really have any other avenues and so they wind 
up petitioning, and petitioning, and petitioning in the hope 
that someone will see how horrible their case is and will do 
something about the local official, and no one ever does.
    I mean, the most they ever get that I've heard of is a 
letter from the Supreme Court saying, ``Please look into this 
case,'' which the official laughs at and tosses out the window. 
So in those kinds of cases I think there's very rarely an 
instance of something working in the sense of the case being 
resolved to the petitioner's satisfaction. So, it depends on 
the topic, I think.
    Mr. Grob. Any other questions? Yes?
    Audience Participant.  I have a question for the experts. 
What are the attitudes or positions of the general public in 
China toward petitioners?
    It seems to me that people in China cannot organize to 
express their grievances, so what are the positions of the 
public toward petitioners?
    Mr. Grob. So the question was, what is the attitude of the 
general public toward both petitioners and the petitioning 
system, given the suggestion that, unless a particular 
petitioner's grievance is echoed to some extent by the general 
population, there will be less likelihood of effective redress 
of grievances. So what is the attitude of the general public 
toward petitioners and the petitioning system? Xiaorong, would 
you like to----
    Ms. Li. Hard questions come to me. I wish there were some 
studies of the popular attitudes. I haven't seen any good 
studies. My feeling is, there is a measure of support of the 
government repression against petitioners from the city 
residents, because before the Olympics, before other important 
national events, the residents in the cities regarded these 
people who came from far away, they're poorly fed, shabbily 
dressed, look all tired and dusty and sleep in street corners 
as homeless people and beggars, so they wanted to kick these 
people out. They also contributed to increasing crimes through 
the gatherings of such groups of people.
    But then increasingly in China, as the middle class, 
educated people come into contact with real social miseries, 
people can be moved to try to help them. For example, right now 
there are several drives in Beijing, when the winter comes, to 
collect warm blankets and coats, and to send it to the 
petitioners. There are at least three that I know of. So it's a 
mixed picture, but I would like to see such a study.
    Mr. Grob. Thank you.
    Any additional questions? I think there is one way in the 
back there. Yes, please go ahead.
    Mr. Shen. My name is Shen Wei and I will talk a little 
about Shanghai and how many people are affected and what it 
means, because it's very serious, especially the actions by 
police. It means that these people are being kicked out of 
their houses by the government without receiving any 
compensation. Their houses are confiscated so we'd like to 
thank you for your attention. Can you maybe briefly speak in 
Chinese so that I don't have to translate for her? [Translation 
in Chinese].
    Ms. Shen [through translator, Mr. Hongfuan Li]. Sometimes 
there wasn't compensation. Other times there was compensation, 
but I believe it to be extremely unfair, so there's no 
agreement that had been reached. To my knowledge, there are 
thousands of households and people who have been affected. They 
have nowhere to live. They have already been kicked out of 
their homes. They're living in rentals, but the landlords are 
constantly under harassment for renting to petitioners. Since 
this occurred, that is--one of the particular reasons to try to 
bring these events in China to your attention before the World 
Expo happens.
    Thank you.
    Mr. Grob. Thank you very much.
    Additional questions? We have a few minutes left. Yes. 
Please go ahead.
    Mr. Hongfuan Li. Can I ask a question about historical 
perspectives. I'll share my own observations. About 20 years 
ago actually, I was a young teacher in Beijing. Twenty years 
ago, it was the students and young people like myself who went 
on the street, and some people took extreme measures trying to 
bring people's attention to the demands. The students were not 
happy with the political system. Specifically, that's why we 
gathered in Tiananmen Square.
    That's a very small signal--but over the past 20 years, 
those kinds of struggles have faded away. Personally, myself, I 
graduated from a famous university in China. If I had stayed in 
China, I would be a professor. I would make $10,000 and live a 
very good life. The majority of people like myself in China are 
not really willing to risk anything that will call for a 
political change. So that's what I observed. Gradually, the 
workers are being kicked out.
    All the factories are being merged and these people are 
living a very hard life. They are all by themselves, so there 
is little unity in trying to change things so these people are 
just living, that's it. Then in the second step beyond that 
is--the houses they live in, this is like Beijing and Shanghai, 
they're 10 times bigger. But the land, in Chinese law, the 
state holds ownership. No individual is--very few people--very 
few, less than 1 percent, so the majority of people--family all 
stay living in Shanghai. Somehow a big project is going on, so 
they----
    Mr. Grob. Let me ask our panelists to comment on the 
historical perspective. Thank you very much for sharing.
    Mr. Hongfuan Li. Thank you.
    Mr. Grob. Thank you.
    Do you have anything to add on the historical perspective? 
No. Okay. Well, perhaps we can come back to that.
    Any other questions right now? Please.
    Audience Participant. I just had a quick question. If you 
could clarify, in your written remarks it talks about the 
xinfang which needs to be reviewed--of xinfang, and maybe you 
could touch on the relationship between the xinfang and legal 
systems; is there a difference between the two systems and how 
this gets resolved, and what would be the outcomes?
    Mr. Minzner. That's a really good question. Yes. Xinfang is 
a broad umbrella term that refers to all of these offices. Let 
me try to break it down. Almost every single government agency 
is going to actually have its own xinfang bureau.
    In addition, at every level within the Chinese bureaucracy, 
such as county-level governments or provincial-level 
governments, you'll find that there's a xinfang bureau attached 
to the particular government and Party committee at that level. 
It's a shared bureau. That is to say, if you're trying to go to 
the Hebei provincial government or the Hebei Party committee, 
you'll actually find it's the same xinfang institution that's 
receiving your grievances.
    These xinfang offices are channels by which you can attempt 
to submit a wide range of political suggestions, appeals for 
redress of grievances, allegations of corruption on the part of 
local officials, and so on. Within the judiciary itself, you'll 
also find that there are also a range of--and it's going to 
vary based on the time period--institutions which are set up to 
receive less-than-formal submission of complaints. So you'll 
have channels within individual courts where you can submit 
complaints that don't rise to the level of formally filing a 
case.
    There's a parallel between these systems in the sense that, 
at the end of the day, what's really pushing higher level 
officials to decide whether or not to take a particular issue 
seriously is less the legal merit of the underlying dispute and 
the extent to which it's perceived by higher level officials 
that this could blow up into a mass petition or protest.
    Within courts, that can end up in yanking or pulling of a 
court opinion that has already been issued. True, if you're 
looking at the paper requirements, you will find statements 
that say, no, petitions should not be brought for cases which 
have already been decided--but in practice you'll find that the 
social stability concerns can trump whatever the technical 
requirements are.
    Mr. Grob. Go ahead.
    Ms. Brettell. I have a question for the panelists. Recently 
there have been several local level rules passed in Shenzhen, 
in Inner Mongolia, in Jiangsu Province, and other places that 
prohibit certain behaviors of petitioners. I think there are a 
total of 14 behaviors that they prohibit petitioners from 
engaging in. This exceeds the number that are prohibited by the 
national xinfang regulation.
    So I'm wondering, do you think that these rules will be 
implemented? Are these rules actually justifying activities 
that authorities are already doing? What's behind some of these 
rules, and will they be implemented? What has been the reaction 
from petitioners, academics, or legal scholars regarding the 
new rules?
    Ms. Li. It's a reaction to the fact that the crackdown 
hasn't worked, so they need other legal tools. Remember, 
jiefang  [intercepting petitioners] has no legal basis because 
xinfang is allowed. So now they have to come up with a legal 
foundation for doing so. So a way is to respond, they need 
stronger legal tools, and a way is to sort of get ready for 
harsher crackdown when the petitioners go to higher levels. 
It's a reflection of the desperation felt at the local levels 
by the authorities that they cannot stop the petitioners from 
going.
    So it is to justify what they're about to do. It's also a 
way of getting public support by saying, ``Look, here are the 
legal regulations, we're doing it according to the books.'' So 
they first have the books ready, and then they can justify what 
they are about to do, or they have been doing. The reactions--I 
think it's too short of a time to have scholarly reactions. I 
know the local human rights groups, the civil society groups 
have reacted very negatively and angrily to the regulations.
    Mr. Grob. Okay. And with that, we have reached 3:30. 
Unfortunately, I have to conclude the proceedings. We would 
like to thank you all for your participation, and thanks 
especially to our panelists, Carl Minzner, Li Xiaorong, and Meg 
Davis. We would also like to thank Dr. Anna Brettell, Senior 
Advisor on the Commission staff, for organizing this panel.
    Please look for the transcript, which will be posted on our 
Web site, and keep your eyes on www.cecc.gov for our Annual 
Report, our periodic reporting, and other events and special 
topic reports that we post there.
    With that, we'll conclude our proceedings. Thank you very 
much.
    [Whereupon, at 3:30 p.m., the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
